Report No. DODIG-2013-034                December 21, 2012




   Better Processes Needed to Appropriately Justify and
        Document NAVSUP WSS, Philadelphia Site
                   Sole-Source Awards
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms
FAR                   Federal Acquisition Regulation
FPDS-NG               Federal Procurement Data Systems – Next Generation
ITIMP                 Integrated Technical Item Management and Procurement
J&A                   Justification and Approval
JDRS                  Joint Deficiency Reporting System
NAVSUP                Naval Supply Systems Command
NMCARS                Navy and Marine Corps Acquisition Regulation Supplement
WSS                   Weapon Systems Support
                                INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                  4800 MARK CENTER DRIVE
                               ALEXANDRIA, VIRGINIA 22350-1500




                                                                       December 21, 2012

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               NAVAL INSPECTOR GENERAL

SUBJECT: Better Processes Needed to Appropriately Justify and Document NAVSUP
         WSS, Philadelphia Site Sole-Source Awards
         (Report No. DOI)IG-2013-034)

We are providing this report for your information and use. Naval Supply Systems
Command Weapon Systems Support, Philadelphia Site contracting personnel obtained
approval of the Justification and Approval from the proper personnel within required time
frames. However, technical, source development, and contracting personnel did not
consistently follow regulations to appropriately justify and document all 32 sole-source
contracts reviewed, with an obligated value of about $68.5 million. This report is the
seventh in a series of audit reports on DoD contracts awarded without competition. We
considered management comments on a draft of this report when preparing the final
report.

Comments on the draft of this report conformed to the requirements of DoD Directive
7650.3 and left no unresolved issues. The recommendations were redirected to the higher
level office that could effect the implementation, and comments were received from this
office. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-9077 (DSN 664-9077).

                                             /1
                                           ')fJ{ul!r~~fwice~~)t ,;flca~uN/cJ
                                            U~ssikant Inspector General
                                              Acquisition and Contract Management
Report No. DODIG-2013-034 (Project No. D2011-D000CG-0228.003)               December 21, 2012

              Results in Brief: Better Processes Needed to
              Appropriately Justify and Document NAVSUP
              WSS, Philadelphia Site Sole-Source Awards
                                                       •   follow some synopsis requirements for the
What We Did                                                27 proposed contracts that required a
Our objective was to determine whether DoD                 synopsis because contracting personnel were
noncompetitive contract awards were properly               unaware of a few of the requirements.
justified as sole source. This report is the           As a result, improper sole-source awards could
seventh in a series of reports on DoD contracts        occur. Personnel could not make informed
awarded without competition and includes               decisions that the proposed contractors were the
contracts issued by the Naval Supply Systems           sole source. Also, interested sources were not
Command Weapon Systems Support (NAVSUP                 aware of future contracting opportunities.
WSS), Philadelphia Site. We reviewed
32 contracts with an obligated value of about          Corrective Actions
$68.5 million that NAVSUP WSS, Philadelphia            The NAVSUP WSS, Director of Contracts,
Site contracting personnel awarded in FY 2009          issued a policy memorandum requiring all J&As
and FY 2010.                                           to be reviewed by the Office of Counsel for
                                                       legal sufficiency before final approval of the
What We Found                                          J&A. Also, NAVSUP WSS, Philadelphia Site
NAVSUP WSS, Philadelphia Site contracting              contracting personnel issued an e-mail to
personnel obtained approval from the                   personnel providing details on required synopsis
appropriate personnel in the time frames               content. Further, personnel created and
required for 31 of 32 Justification and                provided training that addressed how to properly
Approvals (J&As) for other than full and open          synopsize proposed actions.
competition. However, personnel did not:
• properly justify the award of 13 sole-source         What We Recommend
    contracts because personnel did not explain        We redirected the recommendations to the
    why there was only one capable source;             Commander, Naval Supply Systems Command
• address all content requirements within              to update J&A training and templates and
    31 of the 32 J&As because personnel relied         require personnel to fully address J&A content
    on a standardized J&A template and omitted         requirements to adequately justify
    required information;                              noncompetitive contracts, and require personnel
• obtain legal reviews before approval of              to include adequate documentation of market
    23 of the 32 J&As because internal guidance        research in the contract files to support that
    improperly limited when they were required;        only one source can meet Government
• adequately document the market research              requirements for a given procurement.
    conducted or the results for 29 of
    32 contracts because technical personnel did       Management Comments and
    not document the steps taken when                  Our Response
    reviewing internal and external databases
    and contracting personnel relied on the            The Navy agreed with all recommendations.
    sole-source determinations provided; nor           We consider the Navy’s comments to be
                                                       responsive. No further comments are required.


                                                   i
Report No. DODIG-2013-034 (Project No. D2011-D000CG-0228.003)    December 21, 2012

Recommendations Table

        Management                 Recommendations         No Additional Comments
                                  Requiring Comment               Required
Commander, Naval Supply                                   1 and 2
Systems Command




                                         ii
Table of Contents

Introduction                                                                     1

      Objective                                                                  1
      Background                                                                 1
      NAVSUP WSS, Philadelphia Site                                              1
      Processes Used at NAVSUP WSS, Philadelphia Site                            2
      Contracts Reviewed at NAVSUP WSS, Philadelphia Site                        3
      Review of Internal Controls                                                4

Finding. Better Processes Needed to Appropriately Justify and Document
NAVSUP WSS, Philadelphia Site Sole-Source Awards                                 5

      Approval Obtained From the Proper Officials for Sole-Source Contracts      6
      Inadequate Justification in J&As for the Sole-Source Authority Cited       6
      Required Content Elements Missing in J&As                                  7
      Legal Review Needed Before Approval of J&As                                9
      Inadequate Documentation to Support That Market Research Was Conducted    10
      Synopsis Requirements Must Be Followed                                    13
      Corrective Actions Taken By NAVSUP WSS, Philadelphia Site Personnel       16
      Conclusion                                                                17
      Recommendations, Management Comments, and Our Response                    17

Appendices

      A. Scope and Methodology                                                  19
             Universe and Sample Information                                    19
             Review of Documentation and Interviews                             20
             Use of Computer-Processed Data                                     21
             Use of Technical Assistance                                        21
             Prior Coverage                                                     22
      B. Federal Acquisition Regulation Criteria                                23
             Federal Acquisition Regulation Subpart 6.3, “Other than Full and
                    Open Competition”                                           23
             FAR Subpart 5.2, “Synopses of Proposed Contract Actions”           24
             FAR Part 10, “Market Research”                                     25
      C. Noncompetitive Contracts Reviewed                                      26
      D. Inadequate Justification and Approvals                                 29
      E. Synopses Needing Improvements                                          31

Management Comments

      Naval Supply Systems Command                                              33
Introduction
Objective
Our objective was to determine whether DoD noncompetitive contract awards were
properly justified as sole source at the Naval Supply Systems Command Weapon
Systems Support (NAVSUP WSS) Philadelphia Site, Pennsylvania. This report is the
seventh in a series of reports on DoD contracts awarded without competition. See
Appendix A for the scope and methodology and prior coverage related to the objective.

Background
Section 2304, title 10, United States Code requires contracting officers to promote and
provide for full and open competition when soliciting offers and awarding contracts.
Promoting competition in Federal contracting presents the opportunity for significant cost
savings. In addition, competitive contracts can help improve contractor performance,
prevent fraud, and promote accountability. Contracting officers may use procedures
other than full and open competition under certain circumstances. However, each
contract awarded without providing for full and open competition must conform to
policies and procedures in Federal Acquisition Regulation (FAR) Subpart 6.3, “Other
Than Full and Open Competition.”

FAR subpart 6.3 prescribes the policies and procedures for contracting without full and
open competition. FAR Part 10, “Market Research,” prescribes policies and procedures
for conducting market research to arrive at the most suitable approach for acquiring,
distributing, and supporting supplies and services. FAR Subpart 5.2 “Synopses of
Proposed Contract Actions,” establishes policy to ensure agencies make notices of
proposed contract actions available to the public. Appendix B provides additional
explanation of FAR subpart 6.3, FAR part 10, and FAR subpart 5.2 requirements.

NAVSUP WSS, Philadelphia Site
According to the NAVSUP website, NAVSUP WSS (formerly known as the Naval
Inventory Control Point) provides Navy, Marine Corps, Joint and Allied Forces fleet
supply and program support for the weapons systems that keep Naval forces mission
ready. According to NAVSUP WSS personnel, NAVSUP WSS supports existing
weapon systems and does not have engineering authority to upgrade configurations or
introduce new weapon systems. According to the NAVSUP WSS website, fleet supply
support includes determining current and projected requirements for repairs and
procurements, managing and contracting for repairs, and providing customer support.
Program support includes life cycle management, reliability improvement, integrated
logistics, maintenance planning, and configuration management. NAVSUP WSS has two
locations: NAVSUP WSS, Philadelphia Site, which provides support for Naval aviation
weapons systems; and Mechanicsburg Site, which supports ships, submarines, and
nuclear propulsion.




                                            1
According to the DoD’s Competition Report for Fiscal Year 2009, many aircraft
components are considered critical. The items being procured or repaired in the
NAVSUP WSS, Philadelphia Site contracts reviewed were critical application or critical
safety items, which require source approval and high levels of consistency in the
manufacturing and repair methods to guarantee safety. An item is designated as a critical
application item if the item’s failure could result in minor injuries to personnel (resulting
in at least 1 lost workday) or mission loss, or if the assembly contains one or more
subcomponents that are critical application items. Critical safety items are a subset of
critical application items. They are designated as critical safety items based on the
consequence of failure of the item, not the probability that the failure or consequence
would occur. According to Defense Federal Acquisition Regulation
Supplement 252.209-7010, an aviation critical safety item is:
               a part, an assembly, installation equipment, launch equipment, recovery
               equipment, or support equipment for an aircraft or aviation weapon
               system if the part, assembly, or equipment contains a characteristic any
               failure, malfunction, or absences of which could cause – (i) a
               catastrophic failure resulting in the loss of or serious damage to the
               aircraft or weapon system; (ii) an unacceptable risk of personal injury
               or loss of life; or (iii) an uncommanded engine shutdown that
               jeopardizes safety.

The DoD’s Competition Report for Fiscal Year 2009 and DoD’s Competition Report for
Fiscal Year 2010 both identified the approval process and substantial investment and
testing required for alternate sources for critical items and maintenance capability as
barriers to competition.

Processes Used at NAVSUP WSS, Philadelphia Site
According to NAVSUP WSS, Philadelphia Site personnel, they use electronic databases
during the contract procurement process and follow specific procedures during the
preparation process for Justification and Approvals (J&A) for other than full and open
competition. Personnel use the Integrated Technical Item Management and Procurement
(ITIMP) system, an automated procurement system that allows input from many different
areas of the procurement process, including input from equipment specialists, item
managers, financial specialists, as well as technical, source development, contracting, and
small business personnel. ITIMP electronically stores contract documentation as well as
information pertaining to similar buys, item descriptions, potential sources for items, and
previous award histories. According to contracting personnel, the synopsis, solicitation,
and some contracts can be issued from the system. In addition to ITIMP, source
development personnel stated that they view numerous databases when preparing J&As.
Source development personnel access the Joint Deficiency Reporting System (JDRS), a
cross-service, Web-enabled automated tracking system designed to provide a common,
seamless solution for deficiency reporting and resolution management across the
Aeronautical Enterprise. Source development personnel stated that they can access JDRS
to review information pertaining to critical items, such as critical characteristics and
manufacturers. This information can be used to determine whether a competitive
acquisition is possible for a particular critical item.



                                                  2
NAVSUP WSS, Philadelphia Site technical, source development, and contracting
personnel all contribute to the completion of a J&A. According to contracting personnel,
technical and source development personnel complete most portions of a J&A template,
then forward the J&A to competition advocate office personnel for review before
contracting personnel complete the remaining sections of the J&A. Technical personnel
are responsible for preparing the J&As with an estimated contract value below $500,000,
and source development personnel are responsible for preparing only two questions on
the J&As for contracts with an estimated value above $500,000. FAR 6.303-2(b)(12) and
6.303-2(c) requires technical personnel and contracting officers to certify that the
information in the J&A is accurate and complete to the best of their knowledge.

NAVSUP WSS, Philadelphia Site technical, source development, and contracting
personnel use standardized J&A templates. Overall, according to the command
evaluation personnel and legal counsel, the high volume of J&As that were once
processed at the NAVSUP WSS, Philadelphia Site contributed to the use of a
standardized J&A format. Technical, source development, and contracting personnel
complete various types of templates, based upon the type of buy or repair and the urgency
to the fleet, to justify and authorize a noncompetitive award. Legal counsel approved and
supported the use of the standardized templates and a statement was included at the top of
each template stating that deviations from the approved templates must obtain legal
approval.

Contracts Reviewed at NAVSUP WSS, Philadelphia Site
Our Federal Procurement Data Systems – Next Generation (FPDS-NG) queries identified
that NAVSUP WSS, Philadelphia Site contracting personnel awarded
344 noncompetitive C and D type contracts, 1 with an obligated value 2 of about
$572.7 million during FY 2009 and FY 2010, that met the scope 3 of our review. We
selected a nonstatistical sample of 43 contracts with an obligated value of about
$79.6 million to review. We excluded 10 of the 43 contracts initially selected because
they were outside the scope of our audit:

     •   seven contracts were awarded under limited competition,
     •   one contract was awarded under full and open competition,
     •   one contract was transferred to the Defense Logistics Agency, and
     •   one contract was awarded under the simplified acquisition procedures.



1
  Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII Number,” defines C type
contracts as “[c]ontracts of all types except indefinite delivery contracts, sales contracts, and contracts
placed with or through other Government departments or agencies or against contracts placed by such
departments or agencies outside the DoD,” and D type contracts as “[i]ndefinite delivery contracts.”
2
  Data obtained in FPDS-NG is reported on an individual action basis (that is, single modification). As a
result, we combined all actions identified for a given contract to determine the number of contracts awarded
during FYs 2009 and 2010 and their respective obligated amounts during those fiscal years.
3
  Our scope was limited to actions issued on contracts that were awarded during FYs 2009 and 2010.
Actions were coded as either a “noncompetitive delivery order” or “not competed” in FPDS-NG and did
not receive more than one offer as identified in FPDS-NG.


                                                     3
In addition, NAVSUP WSS, Philadelphia Site personnel could not locate one of the
requested contract files; therefore, we excluded the contract from our review because
documentation was not available for review. In total, we reviewed 32 contracts with an
obligated value of about $68.5 million. See Appendix C for additional details on the
noncompetitive contracts reviewed.

Review of Internal Controls
DoD Instruction 5010.40, “Manager’s Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses pertaining to the audit objective for NAVSUP WSS, Philadelphia Site for the
32 contracts reviewed. NAVSUP WSS, Philadelphia Site personnel consistently did not
appropriately justify or document the support for sole-source awards. Specifically,
NAVSUP WSS, Philadelphia Site personnel awarded sole-source awards based on
inadequately supported and incomplete justifications, and inadequately documented
market research. Also, personnel did not obtain legal review of the justifications.
Additionally, NAVSUP WSS, Philadelphia Site personnel did not provide detailed
information in the J&As or document the market research completed. Personnel
followed guidance that established inappropriate limitations on legal review and were
unaware of some synopsis requirements. We will provide a copy of the report to the
senior official(s) responsible for internal controls at NAVSUP WSS headquarters.




                                            4
Finding. Better Processes Needed to
Appropriately Justify and Document NAVSUP
WSS, Philadelphia Site Sole-Source Awards
NAVSUP WSS, Philadelphia Site contracting personnel obtained approval from the
appropriate personnel within required time frames for 31 of 32 J&As for other than full
and open competition as required by FAR 6.304, “Approval of the Justification.”
However, personnel inadequately justified noncompetitive contract awards in the J&A
and did not comply with additional requirements to adequately document sole-source
awards for the 32 contracts, with an obligated value in FYs 2009 and 2010 of about
$68.5 million. Specifically, NAVSUP WSS, Philadelphia Site personnel did not:

•   properly justify the award of 13 noncompetitive contract awards, with a base value of
    about $3.1 million at award, because technical and contracting personnel did not
    adequately explain in the J&A why the proposed contractor was the only source
    capable of meeting the Navy’s requirements;
•   fully address in 31 J&As all the elements required by FAR 6.303-2 and Navy and
    Marine Corps Acquisition Regulation Supplement (NMCARS) 5206.303-2,
    “Content,” because technical, source development, and contracting personnel relied
    on a standardized J&A template, inadequately addressed content requirements, and
    omitted required information when preparing the J&As;
•   obtain legal review before approval for 23 of the 32 J&As as required by
    NMCARS 5206.303-90, “Legal Reviews,” because internal guidance inappropriately
    limited the requirement for legal review of the J&As;
•   adequately document the market research conducted or the results in 29 contract files
    as required by FAR part 10, “Market Research,” and FAR Subpart 4.8, “Government
    Contract Files,” to support sole-source determinations because technical and source
    development personnel did not document the steps taken to conduct market research
    and their results when reviewing internal and external databases, and contracting
    personnel relied on the sole-source determination provided by those personnel and
    did not conduct additional market research; nor
•   follow some synopsis requirements for the 27 proposed contracts that required a
    synopsis as required by FAR subpart 5.2, “Synopsis of Proposed Contract Actions,”
    because contracting personnel were unaware of a few of the requirements.
As a result, these problems could lead to the improper award of sole-source contracts.
Specifically, contracting personnel could not make informed decisions concerning
whether the proposed contractors were the only available or capable source. Also,
interested sources were not made aware of future contracting opportunities.




                                            5
Approval Obtained From the Proper Officials for
Sole-Source Contracts
NAVSUP WSS, Philadelphia Site contracting personnel obtained approval from the
appropriate official in the time frames required for 31 of the 32 J&As. The contracting
officer incorrectly approved the remaining J&A for contract N00383-09-C-D016, with an
estimated value of $639,450; during that time period, FAR 6.304 required competition
advocate approval for J&As valued between $550,000 and $11.5 million.

FAR 6.304 defines the proper approval authority at various thresholds for the estimated
dollar value including options. Between FYs 2009 and 2010, the FAR authorized the
procuring contracting officer to provide the final approval for proposed contract actions
with an estimated value up to $550,000 and the competition advocate of the procuring
activity to provide the final approval for proposed contract actions with an estimated
value of more than $550,000 but not exceeding $11.5 million. The FAR authorized the
general or flag officer, if a member of the military, or a civilian in a position above
GS-15 under the General Schedule, to provide the final approval for proposed contract
actions with an estimated value of more than $11.5 million but not exceeding
$78.5 million. The FAR authorized the senior procurement executive of the agency to
provide the final approval for proposed contract actions with an estimated value
exceeding $78.5 million. NAVSUP WSS, Philadelphia Site contracting personnel
obtained the proper approval from the contracting officer for 23 J&As and from the
Competition Advocate for 5 J&As. Contracting personnel also obtained approval from
the appropriate officials for two J&As with estimated values of more than $11.5 million
but not exceeding $78.5 million and for one J&A with an estimated value exceeding
$78.5 million.

Inadequate Justification in J&As for the Sole-Source
Authority Cited
NAVSUP WSS, Philadelphia Site technical and contracting personnel did not adequately
justify the sole-source authority cited in 13 of the 32 J&As because personnel did not
provide adequate rationale explaining why the contractor was the only capable source.
However, personnel included other documentation within the contract files to show that
                                          the contracts were sole source. In each J&A,
     Personnel never stated in the        personnel cited FAR 6.302-1, “Only One
  J&As that the contractor was the        Responsible Source and No Other Supplies or
  only source that owned the data         Services Will Satisfy Agency Requirements,” and
   or was the only source capable         provided the name of the intended source, but
    of manufacturing or repairing         never explained why that contractor was the only
         the items to meet the            source capable of meeting the Government’s
             requirements.                requirements. Personnel provided rationale in the
                                          13 J&As as to why competition would be limited,
such as the Government not owning the technical data or the items needing to meet
critical operational and reliability requirements. However, personnel never stated in the
J&As that the contractor was the only source that owned the data or was the only source
capable of manufacturing or repairing the items to meet the requirements. Although


                                             6
personnel did not provide adequate rationale within the J&As to justify that the award
must be sole source, personnel provided other documentation within the hard copy
contract files and ITIMP 4 showing the contracts were sole source. Personnel procured
items through each of the contracts reviewed that were either critical application items or
critical safety items. In addition, ITIMP queries showed that the contractors are currently
the only approved sources to make or repair the items being procured. Inadequate
justifications could lead to the improper award of sole-source contracts. NAVSUP WSS,
Philadelphia Site personnel should update the J&A training and templates and require
personnel to fully address FAR requirements in J&As to adequately justify that only one
source can meet the Government’s requirement. See Appendix D for additional
information on improper J&A approvals, justifications, content, and legal reviews.

Required Content Elements Missing in J&As
NAVSUP WSS, Philadelphia Site technical, source development, and contracting
personnel did not include all required content elements in 31 of 32 J&As. Personnel
relied on the standardized J&A template, did not adequately address all the required
elements of FAR 6.303-2, “Content,” and NMCARS 5206.303-2, “Content,” and omitted
required information when preparing the J&As. NAVSUP WSS, Philadelphia Site
personnel did not fully meet these requirements:

    •   FAR 6.303-2(b)(5) states the J&A must show “the proposed contractor’s unique
        qualifications or the nature of the acquisition requires use of the authority cited.”
    •   FAR 6.303-2(b)(6) states the J&A must show “a description of efforts made to
        ensure that offers are solicited from as many potential sources as is practicable,
        including whether a notice was or will be publicized as required by Subpart 5.2
        and, if not, which exception under 5.202 applies.”
    •   FAR 6.303-2(b)(8) states the J&A must describe the market research conducted
        and the results or the reason market research was not conducted.
    •   FAR 6.303-2(b)(10) states the J&A must include a list of sources that expressed
        in writing an interest in the acquisition.
    •   NMCARS 5206.303-2(a)(ii) states the J&A must include the total estimated
        dollar value for the acquisition, identified by fiscal year and appropriation.
    •   NMCARS 5206.303-2(a)(iv) states the J&A must include “an explanation of all
        actions attempted to make the immediate acquisition competitive and the
        cost/benefit analysis reflecting costs associated with obtaining competition and
        anticipated benefits.”
NAVSUP WSS, Philadelphia Site personnel used the different J&A templates for the
different types of acquisitions. The templates previously limited the amount of
information that could be provided in the J&A. Further, personnel relied on pre-
populated statements in the templates to address content requirements without providing
additional support for the sole-source nature of the acquisition. Personnel also omitted


4
 The electronic contract file documentation contained within ITIMP could not be traced to source
documents. For more information, see Appendix A, “Use of Computer-Processed Data.”


                                                    7
required information when completing the J&A. See Table 1 for a list of the content
requirements not met and the number of J&As that were not in compliance with the
specific requirements and Appendix D for the specific contracts that did not meet each
requirement.

          Table 1. J&As Not in Compliance With Content Requirements
         Content Requirement             Number of J&As Not in Compliance*
          FAR 6.303-2(b)(5)                                13
          FAR 6.303-2(b)(6)                                22
          FAR 6.303-2(b)(8)                                26
          FAR 6.303-2(b)(10)                                4
      NMCARS 5206.303-2(a)(ii)                              3
      NMCARS 5206.303-2(a)(iv)                             12
   *Personnel did not meet multiple content requirements within many of the 32 J&As.

NAVSUP WSS, Philadelphia Site personnel completed and certified 31 of 32 J&As that
did not include all required FAR and NMCARS content elements. NAVSUP WSS,
Philadelphia Site personnel completed and certified:

   •   31 of 32 J&As that did not fully meet at least 1 of the 12 FAR 6.303-2(b) content
       requirements, and
   •   13 of 32 J&As that did not fully meet at least 1 of the 3 applicable NMCARS
       content requirements.

Overall, NAVSUP WSS, Philadelphia Site source development and contracting personnel
fully addressed all of the FAR and NMCARS content requirements for only one J&A,
which was for contract N00383-09-D-003N. The Assistant Secretary of the Navy for
Research, Development, and Acquisition, reviewed and approved this J&A as required
for the high estimated value of the procurement, which was $121 million. Incomplete
and inadequate justifications could lead to the improper award of sole-source contracts.
NAVSUP WSS, Philadelphia Site technical, source development, and contracting
personnel should update the J&A training and templates to require personnel to
adequately address FAR and NMCARS content requirements in J&As so they adequately
justify that the contract should be awarded under other than full and open competition.

Additional Details Needed in J&As to Adequately Meet FAR
Content Requirements
NAVSUP WSS, Philadelphia Site technical, source development, and contracting
personnel completed and certified 13 J&As that did not adequately meet the requirements
of FAR 6.303-2(b)(5) and 26 J&As that did not meet the requirements of
FAR 6.303-2(b)(8) because personnel did not include adequate detail within the J&As.
Specifically, personnel did not include statements providing information that the
contractor was the only source capable of meeting the Government’s requirements for the
13 J&As. Also, personnel did not provide a description of the market research conducted


                                            8
and the results of the steps taken or provide a reason market research was not conducted
in 26 J&As. In some cases, personnel included this statement in the J&A: “a technical
review has been made to determine and identify all known sources.” We do not consider
this statement to be adequate to meet the requirements of FAR 6.303-2(b)(8) because
personnel did not provide the results of the technical review in the J&A. In addition,
personnel did not specify the type of technical review completed; therefore, it cannot be
determined how the technical review dealt with market research.

Questions in J&A Template Unanswered
NAVSUP WSS, Philadelphia contracting personnel completed and certified 22 J&As that
did not meet the requirements of FAR 6.303-2(b)(6) and 4 J&As that did not meet the
requirements of FAR 6.303-2(b)(10) because personnel did not answer the questions
provided in the J&A template. To meet the requirements of FAR 6.303-2(b)(6), each of
the 22 J&As included a pre-populated statement in the template that said, “the proposed
contract was/will be synopsized in the FedBizOpps website for government wide point of
entry.” However, personnel did not indicate in any of the 22 J&As whether it was or will
be synopsized by circling the appropriate option, crossing out the option not selected, or
by answering the question in writing. We consider not selecting one or the other as being
inadequate to meet the content requirement because these options are mutually exclusive.
FAR 6.303-2(b)(10) states the J&A must include a list of sources that expressed in
writing an interest in the acquisition. Contracting personnel did not answer the applicable
question provided in the J&A template for four J&As. We do not consider this adequate
because contracting personnel should include a list of sources or a statement that none
expressed interest to show that the question has been addressed.

NMCARS Content Requirements Insufficiently Met
NAVSUP WSS, Philadelphia Site technical and contracting personnel completed and
certified 13 of 32 J&As that did not fully meet the NMCARS content requirements.
NAVSUP WSS, Philadelphia Site technical and contracting personnel only partially met
the requirements of NMCARS 5206.303-2(a)(ii) in three J&As. Personnel included the
total estimated dollar value but did not identify the fiscal year and appropriation. Also,
technical and contracting personnel did not adequately meet the requirements of
NMCARS 5206.303-2(a)(iv) in 12 J&As. When technical and contract personnel
adequately explained in the J&A why the acquisition could not be expected to be
competed, we considered this to be adequate; however, the 12 J&As did not provide this
explanation or a cost/benefit analysis reflecting costs associated with obtaining
competition and anticipated benefits.

Legal Review Needed Before Approval of J&As
NAVSUP WSS, Philadelphia Site contracting personnel did not obtain legal review of
the J&A before approval for 23 of the 32 J&As, as required by NMCARS 5206.303-90,
“Legal Reviews,” because internal guidance inappropriately limited when legal counsel
review of the J&A was required. NAVSUP officials issued internal guidance that
established thresholds indicating when to obtain legal review of the J&As. Naval
Inventory Control Point Instruction 5800.1G, “Matters for Referral to Counsel,” July 11,
2001, and NAVSUP Instruction 5801.1, “Referral of Contractual Matters to the Office of


                                             9
Counsel,” September 8, 2009, both required NAVSUP WSS, Philadelphia Site legal
counsel to review all J&As for procurements citing sole-source authorities other than
FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services Will
Satisfy Agency Requirements.” Internal guidance only required legal counsel to review
J&As citing FAR 6.302-1 that had an estimated value exceeding $500,000. In
accordance with internal guidance, NAVSUP WSS, Philadelphia Site contracting
personnel did not obtain legal review of the J&A before contract award for any of the
20 J&As citing FAR 6.302-1 with an estimated value below $500,000. In addition,
contracting personnel did not obtain legal review of one J&A before approval and did not
obtain legal review of two J&As citing FAR 6.302-1 with an estimated value exceeding
$500,000.

Although internal guidance did establish thresholds permitting certain J&As to not be
reviewed, NMCARS 5206.303-90 states, “each justification must be reviewed for legal
sufficiency by counsel for the activity preparing the
justification before its submission for approval.”            NAVSUP WSS Director of
NMCARS 5201.403(1) states that the Deputy                 Contracts issued “02 Interwoven
Assistant Secretary of the Navy (Acquisition and            Policy and Procedure Memo
Procurement) is the approval authority for                 I-94-05(c),” which requires all
individual or class deviations from NMCARS.               J&As,  regardless of dollar value,
During reviews of the internal guidance and                to be reviewed by the Office of
discussions held with NAVSUP WSS, Philadelphia              Counsel for legal sufficiency
Site legal counsel, we did not find an approval from      before final approval of the J&A.
the Deputy Assistant Secretary of the Navy
(Acquisition and Procurement) for a deviation from requiring a legal review of all J&As
or a delegation of the authority to approve deviations from NMCARS. We are not
making a recommendation to address this problem because on July 18, 2012, NAVSUP
WSS Director of Contracts issued “02 Interwoven Policy and Procedure Memo
I-94-05(c),” which requires all J&As, regardless of dollar value, to be reviewed by the
Office of Counsel for legal sufficiency before final approval of the J&A.

Inadequate Documentation to Support That Market
Research Was Conducted
NAVSUP WSS, Philadelphia Site personnel did not appropriately document the market
research conducted in the contract file for 29 of the 32 contracts because technical and
source development personnel did not document the steps taken to conduct market
research and their results when reviewing internal and external databases, and contracting
                                       personnel relied on the sole-source determination
     Personnel did not document
                                       provided by those personnel and did not conduct
     market research techniques
                                       additional market research. FAR 10.002(e)
    identified in FAR part 10 for
                                       explains that agencies should document the results
       29 of the 32 contracts.
                                       of market research in a manner appropriate to the
size and complexity of the acquisition. Personnel did not document market research
techniques identified in FAR part 10 for 29 of the 32 contracts. For example, personnel
documented in the J&A that a technical review was conducted to determine and identify
all known sources. However, personnel did not discuss both the type of technical review


                                            10
conducted and their results of the review in the contract file. FAR subpart 4.8,
“Government Contract Files,” requires a contract file to include documentation for the
basis of the acquisition and the award. In addition, the documentation shall be sufficient
to provide a complete background as a basis for informed decisions at each step in the
acquisition process. Technical and source development personnel provided examples
during multiple discussions of the types of market research that were conducted;
however, the market research techniques that were used and the results of their market
research were not documented. Contracting personnel could not make an informed
decision that the proposed contractor was the only available or capable source, which
could lead to inappropriate sole-source awards. However, we did not identify any
inappropriate sole-source awards for the 32 contracts reviewed.

NAVSUP WSS, Philadelphia Site source development personnel used information from
internal and external databases when preparing J&As. However, source development and
technical personnel did not include supporting documentation from the external databases
in the contract file to support their sole-source determinations. In addition, current
searches show inconsistencies between the contract documentation and external
databases. According to source development personnel, technical personnel used the
same databases. However, technical personnel were unavailable to discuss information
related to the databases. Source development personnel stated that they review these
external databases: the JDRS and the Joint Engineering Data Management Information
and Control Systems. Source development personnel also stated that they review internal
databases, such as Enterprise Resource Program and ITIMP. The external databases
determined the criticality of the item and the sources capable of making the item. The
information generated from the internal and external databases displays current
information rather than information that would have been relevant at the time of contract
award. The audit team received access to the JDRS and the ITIMP to support sole-source
determinations made within the J&A. We did not identify inconsistencies between
external databases and the contract file for 4 of the 32 contracts. In those four contracts,
the contract file and external databases identified the same contractor and criticality of
the item being procured or repaired. We identified inconsistencies between external
databases and the contract file for 8 of the 32 contracts. We did not find any
documentation to support the information in the contract file in JDRS for the other
20 contracts. See Table 2 for a list of the 20 contracts that did not have any supporting
documentation in JDRS for the parts being procured or repaired.




                                            11
             Table 2. Contracts Lacking Supporting Documentation on
                    Potential Sources From External Databases
                N00383-09-C-H004              N00383-09-D-020F
                N00383-10-D-001H              N00383-10-C-D002
                 N00383-09-C-F024             N00383-10-C-F012
                N00383-09-C-N048              N00383-10-C-P057
                 N00383-09-C-P262             N00383-10-C-P224
                N00383-09-D-004F              N00383-09-C-F009
                N00383-09-C-D016              N00383-10-C-F045
                N00383-10-C-D017              N00383-10-C-F017
                N00383-09-C-D008              N00383-10-C-D007
                N00383-09-C-N003              N00383-10-D-007D

For example, we identified inconsistencies between JDRS and ITIMP for
contract N00383-09-C-M012. We performed queries in JDRS and ITIMP that identified
different contractors. Further, NAVSUP WSS, Philadelphia Site personnel indicated a
change in the acquisition method within ITIMP, which was different than the acquisition
method identified in the J&A, but personnel did not provide an explanation or rationale in
ITIMP as to why the method changed. We could not determine the cause of the
inconsistences because of a lack of supporting documentation in the contract file, limited
data available from outside databases, and the inability to extract from the databases
information that would have been relevant at the time of award. NAVSUP WSS,
Philadelphia Site technical, source development, and contracting personnel should
include adequate market research documentation in the contract files to support the
contracting officer’s decision that the award is a noncompetitive procurement.

NAVSUP WSS, Philadelphia Site personnel met FAR part 10 market research
requirements for 3 of the 32 contracts. Personnel appropriately documented the market
research conducted for 2 of the 32 contracts. For example, contracting personnel
adequately conducted and documented market research for contract N00383-09-C-M012
because the documentation in the contract file explained that the contracting officer
reviewed websites and contacted the program office for information regarding various
sources or items that could meet the contract requirements. Contracting personnel
documented in the contract file that additional sources or items were not available.
Personnel did not conduct market research for 1 of the 32 contracts, specifically contract
N00383-09-C-D016, but provided adequate justification in the contract file to meet FAR
part 10 requirements. Although the specific steps taken to conduct market research were
not explicitly stated for the current procurement, the rationale from recent procurements
identified that market research could be conducted, but would not produce useful sources
since the Government lacked ownership of the technical data rights.




                                            12
Synopsis Requirements Must Be Followed
NAVSUP WSS, Philadelphia Site contracting personnel did not comply with some of the
requirements when synopsizing 27 proposed contract actions because they were unaware
of a few synopsis 5 requirements. FAR subpart 5.2, “Synopses of Proposed Contract
Actions,” requires contracting officers to transmit a notice to the Governmentwide Point
of Entry for each proposed contract action expected to exceed $25,000 other than those
covered by an exception in FAR 5.202, “Exceptions.” The primary purposes of the
notice are to improve small business access to acquisition information and enhance
competition by identifying contracting and subcontracting opportunities. In addition,
contracting personnel were unable to locate a copy of the synopsis or proof that a
synopsis was posted for contract N00383-09-C-H004. Contracting personnel were not
required to synopsize 4 of the 32 proposed contract actions. 6

NAVSUP WSS, Philadelphia Site contracting personnel did not:

    •   adhere to synopsis time frames as established in FAR 5.203(a);
    •   include all required synopsis data elements as outlined in FAR 5.207(a),
        “Content,” or provide an adequate description of items being procured as
        explained in FAR 5.207(c), “General Format for ‘Description,’”; and
    •   use required language as outlined in FAR 5.207(c)(14) and FAR 5.207(c)(15)
        when synopsizing proposed contract action.

NAVSUP WSS, Philadelphia Site personnel did not provide sufficient notices to enable
interested sources to be aware of future contracting opportunities by not following
FAR subpart 5.2 requirements when synopsizing proposed contract actions. We are not
making a recommendation to address these problems because personnel took corrective
action to address each of these issues. Contracting personnel issued an e-mail that
informed contracting personnel to include the required language outlined in
FAR 5.207(c)(14) and (15) and to stop using numbered notes in the synopses. In
response to a Procurement Performance Management Assessment Program review and
our audit, personnel created a training presentation to address the findings that they were
not properly synopsizing. The training presentation, titled “Publicizing Contract Actions
(FAR Part 5),” addressed many requirements in FAR part 5 including these subjects
related to the issues we identified: the appropriate time frames between issuance of the
synopses and solicitation, required content in synopses, and required synopsis language
outlined in FAR 5.207(c)(14) and (15). Contracting personnel attended the training on
September 26, 2012 and October 3, 2012. See Appendix E for additional information on
synopses that did not adequately meet the FAR requirements.


5
   FAR subpart 5.2, “Synopses of Proposed Contract Actions,” uses the terms synopsis and pre-solicitation
notice interchangeably.
6
  In accordance with FAR 5.202, “Exceptions,” NAVSUP WSS, Philadelphia Site contracting personnel did
not synopsize two proposed contract actions that cited FAR 6.302-2, “Unusual and Compelling Urgency,”
and two proposed actions with initial estimated values below the Simplified Acquisition Threshold that
cited FAR 5.202(a)(13). An increase in the estimated values occurred after the solicitations were issued,
increasing the values above the simplified acquisition threshold.


                                                   13
Synopsis Time Frame Requirements Were Met
NAVSUP WSS, Philadelphia Site contracting personnel complied with the time frames
between posting the synopsis and the solicitation as established in FAR subpart 5.2 for
20 of the 27 contracts that were synopsized. FAR 5.203(a) states that the notice must be
published at least 15 days before issuance of a solicitation or a proposed contract action
that the Government intends to solicit and negotiate with only one source. Contracting
personnel did not have sufficient documentation for 1 of the 27 contracts that were
synopsized to determine whether the synopsis was published 15 days before the issuance
of the solicitation. Contracting personnel did not provide the required 15-day response
time when synopsizing five proposed contract actions. In another instance, contracting
personnel did not meet time frames as established in FAR 5.203(a) when synopsizing
contract N00383-09-C-F024, because the Request for Quote was issued before the
synopsis. The initial Request For Quote was below the Simplified Acquisition threshold.
Contracting personnel manually synopsized the proposed contract action when an
increase in value occurred, after a response was received from the Request for Quote.
However, in accordance with FAR 5.202(a)(13) “the contracting officer need not submit
the notice required by 5.201 when the contracting officer determines that – the proposed
contract is for an amount not expected to exceed the simplified acquisition threshold; will
be made through a means that provides access to the notice or proposed contract action
through the [Governmentwide Point of Entry]; and permits the public to respond to the
solicitation electronically.” Since contracting personnel were not initially required to
synopsize the proposed contract action, we do not consider this to be a problem. See
Table 3 for the contracts that did not meet the time frames established in FAR 5.203(a).

           Table 3. Contracts Not in Compliance With FAR 5.203(a)
        Contract          Number of Days Between Synopsis and Solicitation
  N00383-10-C-N024                               11
  N00383-09-C-D016                                         5
  N00383-09-C-N003                                         9
  N00383-09-C-N041                                         6
  N00383-09-D-020F                                         6

General Synopsis Content Requirements Were Inadequately Met
NAVSUP WSS, Philadelphia Site contracting personnel did not fully comply with
FAR 5.207(a) synopsis requirements and in five instances did not provide an adequate
description of the proposed contract actions. Contracting personnel did not fully comply
with FAR 5.207(a) requirements in 21 of the 27 proposed contract actions that were
synopsized. Each synopsis transmitted to the Governmentwide Point of Entry must
address certain data elements, as prescribed by FAR 5.207(a). Contracting personnel did
not identify the sole-source contractor in 13 synopses; did not identify the contractor or
the place of performance in 7 synopses; and did not identify the contractor, contracting
office zip code, or the place of performance in 1 synopsis.



                                            14
NAVSUP WSS, Philadelphia Site contracting personnel did not provide an adequate
description of the proposed supplies or services needed for 5 of the 27 proposed contract
actions that were synopsized. Each of the contracts were procuring more than one item,
but contracting personnel only listed one of the items on the synopsis. FAR 5.207(c)
states that the synopsis should have a clear and concise description of the supplies or
services that is not unnecessarily restrictive of competition and will allow a prospective
offeror to make an informed business judgment as to whether a copy of the solicitation
should be requested. Contracting personnel used
                                                               When only one item is
ITIMP to issue synopses to the Governmentwide
                                                              mentioned in a synopsis,
Point of Entry; however, the system’s limitations
                                                          potential sources for additional
allow room for only one National Stock Number.
                                                           items would be unaware of the
To describe more than one item, contracting
                                                                   requirements.
personnel must add additional stock numbers or a
general description of what items are being procured into the remarks section in the
system. When only one item is mentioned in a synopsis, potential sources would be
unaware of the additional requirements.

FAR 5.207(c)(14) and (15) Content Requirements Were
Insufficiently Met
NAVSUP WSS, Philadelphia Site contracting personnel did not include all required
language in the synopses as outlined in FAR 5.207(c)(14) and (15) 7 because personnel
were unaware of these requirements. FAR 5.207(c)(14) requires the synopsis for
noncompetitive contract actions to identify the intended source and provide a statement
justifying the lack of competition. FAR 5.207(c)(15) requires the synopsis for
noncompetitive contract actions to include a statement that all responsible sources may
submit a capability statement, bid, proposal, or quotation, “which shall be considered by
the agency.”

NAVSUP WSS, Philadelphia Site contracting personnel did not include all required
language as outlined in FAR 5.207(c)(14), as follows:

    •   neither the intended sole-source contractor nor a statement in the synopsis that
        justified the lack of competition for 4 of the 27 proposed contract actions that
        were required to be synopsized, and
    •   the intended sole-source contractor in 17 of the 27 synopses.
NAVSUP WSS, Philadelphia Site contracting personnel also did not include the language
required by FAR 5.207(c)(15) for 20 of the 27 contract actions that were synopsized.
NAVSUP WSS, Philadelphia Site contracting personnel did not always encourage
potential sources to respond to the notice because contracting personnel did not include
the required statement, a statement with similar content, or relied on numbered notes.


7
 Effective May 31, 2011, the Federal Acquisition Regulation Circular contained updates that moved the
requirements in FAR 5.207(c)(14) and FAR 5.207(c)(15) to FAR 5.207(c)(15) and FAR 5.207(c)(16),
respectively.



                                                   15
According to the Federal Business Opportunities website’s “Frequently Asked
Questions,” contracting officers used numbered notes as a standardized shorthand when
advertising Federal solicitations in paper form by the Commerce Business Daily.
Commerce Business Daily was replaced by Federal Business Opportunities, which is now
an electronic database. The Federal Business Opportunities website no longer supports
the use of numbered notes and states, “all contracting officers should work with the full
text of statements as required by FAR 5.207 to ensure the information is clearly
communicated.” The Federal Register states that the Civilian Agency Acquisition
Council and the Defense Acquisition Council “believe that information formerly
contained in the numbered notes that is valuable to potential offerors should be included
in full text in the body of the synopsis where it can be fully explained as it pertains to the
proposed acquisition.”

Although NAVSUP WSS, Philadelphia personnel included a numbered note in the
synopses that met the intent of FAR 5.207(c)(15), the FAR was amended to delete all
references to numbered notes on March 31, 2008. Contracting personnel stated in
discussions with the audit team that they were unaware that numbered notes were no
longer acceptable. Contracting personnel did not
                                                             Contracting personnel
comply with FAR 5.207(c)(15) for 4 of the 27
                                                        stated…that   they were unaware
synopses by not including the required language
                                                          that numbered notes were no
as set in FAR 5.207(c)(15) or using numbered
                                                                longer acceptable.
notes. Contracting personnel used numbered
notes in the synopsis for 23 of the 27 contracts and did not include additional statements
to meet the requirement for 16 of the 23 synopses. We considered 7 synopses to be
adequate because contracting personnel included a similar statement in the synopses in
addition to the numbered note, and the similar statement met the intent of FAR
5.207(c)(15). For example, NAVSUP WSS, Philadelphia Site contracting personnel
included information in the synopsis for contract N00383-09-C-N048 on how to become
an approved source and implied that completed approval packages will be reviewed.

Corrective Actions Taken By NAVSUP WSS, Philadelphia
Site Personnel
NAVSUP WSS, Philadelphia Site personnel began taking action to correct some of the
problems identified during the audit. On July 18, 2012, NAVSUP WSS Director of
Contracts issued “02 Interwoven Policy and Procedure Memo I-94-05(c),” which requires
all J&As, regardless of dollar value, to be reviewed by the Office of Counsel for legal
sufficiency before final approval of the J&A. In addition, NAVSUP WSS, Philadelphia
Site contracting personnel issued an e-mail that informed contracting personnel to include
the required language outlined in FAR 5.207(c)(14) and (15) and to stop using numbered
notes in the synopses. In response to a Procurement Performance Management
Assessment Program review and our audit, NAVSUP WSS, Philadelphia Site personnel
created a training presentation to address the findings that they were not properly
synopsizing. Contracting personnel attended the training on September 26, 2012 and
October 3, 2012. This training addressed many requirements in FAR part 5 including




                                             16
these subjects related to the issues we identified: the appropriate time frames between
issuance of the synopses and solicitation, required content in synopses, and required
synopsis language outlined in FAR 5.207(c)(14) and (15).

Conclusion
NAVSUP WSS, Philadelphia Site technical, source development, and contracting
personnel did not consistently follow regulations to appropriately justify and document
sole-source awards. Contracting personnel generally obtained approval of the J&A from
the proper personnel within required time frames. However, personnel inadequately
justified the use of other than full and open competition in the J&A for 13 of the
32 noncompetitive contracts. Information within the contract files did show that the
acquisitions were sole source. Also, personnel did not always comply with FAR 6.303-2
and NMCARS 5206.303-2 content requirements when preparing the J&As, and
contracting personnel did not obtain the required legal review for 23 of 32 J&As before
approval. Further, personnel generally did not include documentation within the contract
files to support market research conducted for the specific procurement. In addition,
contracting personnel did not always comply with some of the synopsis requirements
when synopsizing actions that required a synopsis.

Recommendations, Management Comments, and Our
Response
As requested by the Naval Supply Systems Command, we redirected the draft report
recommendations to the Commander, Naval Supply Systems Command. We recommend
that the Commander, Naval Supply Systems Command:

   1. Update the Justification and Approval training and templates to require
personnel to adequately justify noncompetitive awards and fully address Federal
Acquisition Regulation 6.303-2, “Content,” and Navy and Marine Corps Acquisition
Regulation Supplement 5206.303-2, “Content,” requirements in the Justification
and Approval.


Naval Supply Systems Command Comments
The Commander, Naval Supply Systems Command, agreed with the recommendation
and stated that Naval Supply Systems Command is in the process of updating
Justification and Approval training and templates. Justification and Approval training is
planned for January 16 through February 14, 2013. Specific details of the training are
currently being addressed by a Naval Supply Systems Command cross-functional team
consisting of personnel from the contracting, technical and engineering directorates.
Estimated completion date is March 31, 2013.


Our Response
The Commander’s comments were responsive, and the actions met the intent of the
recommendation. No further comments are required.


                                            17
    2. Require personnel to include adequate documentation within the contracting
files to support the specific steps taken and the results of market research used to
verify that only one source can meet Government requirements for a given
procurement.


Naval Supply Systems Command Comments
The Commander, Naval Supply Systems Command, agreed with the recommendation.
He stated that Naval Supply Systems Command has established a cross-functional team
personnel from the contracting, technical and engineering directorates to address the issue
of requiring personnel to include adequate documentation within the contracting files to
support the specific steps taken and the results of market research used to verify that only
one source can meet Government requirements for a given procurement. Results of this
team’s efforts will be included in the Justification and Approval training sessions,
planned for January 16 through February 14, 2013. Estimated completion date is
March 31, 2013.


Our Response
The Commander’s comments were responsive, and the actions met the intent of the
recommendation. No further comments are required.




                                            18
Appendix A. Scope and Methodology
We conducted this performance audit from July 2011 through October 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our scope included only noncompetitive contract awards during FYs 2009 and 2010 to
determine whether the Naval Supply Systems Command Weapons Systems Support
(NAVSUP WSS), Philadelphia Site, Philadelphia, Pennsylvania, noncompetitive contract
awards were properly and adequately justified as sole source. Our review focused on the
justification and approval (J&A) for other than full and open competition for the base
contract award and supporting documentation within the contract file. We did not review
contracts that were awarded for national security purposes, foreign military sales,
classified contracts, or contracts that were improperly coded in the Federal Procurement
Data System – Next Generation (FPDS-NG) as noncompetitive. In addition, we did not
review contracts that were not sole source, such as contracts that were competitive one
bids or contracts set aside to develop small businesses.

In July 2011, we decided to issue site reports under individual subprojects from the initial
project to provide timely reporting for each site. This project was suspended from
September 13, 2011, through March 26, 2012, to complete other site audits. We
reannounced in October 2011, the revised audit approach of issuing separate audit reports
for each audit site as well as the revised audit objective to determine whether DoD
noncompetitive contract awards were properly justified as sole source. We removed the
specific objective to determine whether negotiated amounts were fair and reasonable.

Universe and Sample Information
We used FPDS-NG to identify noncompetitive contract actions issued by Military
Services and Defense agencies during FYs 2009 and 2010. The queries were limited to
actions issued on contracts that were awarded during FYs 2009 and 2010 and coded as a
“noncompetitive delivery order” or “not competed” in FPDS-NG. The queries also
excluded contract actions that received more than one offer as identified in FPDS-NG.
We selected the four DoD Components with the highest dollar value of awards,
specifically, the Army, Navy, Air Force, and the Defense Logistics Agency to identify
specific audit locations.




                                            19
We focused our site selection for the Department of the Navy on three sites that awarded
20 or more C and D type competitive contract awards * and obligated approximately
$200 million or more during FYs 2009 and 2010. Our site selection excluded sites
visited during the review on noncompetitive contract awards for Government
Accountability Office Report No. GAO-10-833, “Opportunities Exist to Increase
Competition and Assess Reasons When Only One Offer Is Received,” July 26, 2010.
In addition, we reviewed reports the DoD Office of Inspector General, Acquisition and
Contract Management Directorate, issued from FY 2009 to April 2011 that covered
acquisition and contracting procedures and excluded sites that have been visited on
numerous occasions.

The initial data obtained from FPDS-NG resulted in a universe of 344 applicable
contracts for the NAVSUP WSS, Philadelphia Site. We nonstatistically selected 43 of
the 344 contracts by using many different factors, including different dollar amounts and
contract types to create a diverse sample. However, we did not review contracts within
the 43 selected that were awarded for national security purposes, foreign military sales,
classified contracts, or contracts that were improperly coded in FPDS-NG as
noncompetitive. In addition, we did not review contracts that were not sole source such
as contracts that were competitive one bids or contracts set aside to develop small
businesses. In total, we excluded 11 of the 43 contracts selected. Ten of the contracts
were outside of the scope of our audit: 7 contracts were awarded under limited
competition, 1 contract was awarded under full and open competition, 1 contract was
transferred to the Defense Logistics Agency, and 1 contract was awarded under
simplified acquisition procedures. In addition, NAVSUP WSS, Philadelphia Site
personnel could not locate one requested contract file; therefore, we excluded the contract
from our review since documentation was not available. Based on these exclusions, we
reviewed 32 of the 43 contracts requested. See Appendix C for additional details on the
contracts reviewed.

Review of Documentation and Interviews
We evaluated documentation against applicable criteria including:

    •    FAR Subpart 4.8, “Government Contract Files”;
    •    FAR Subpart 5.2, “Synopses of Proposed Contract Actions”;
    •    FAR Subpart 6.3, “Other Than Full and Open Competition”;
    •    FAR Part 10, “Market Research”;
    •    Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII
         Number”; and
    •    Navy and Marine Corps Acquisition Regulation Supplement 5206.3, “Other Than
         Full and Open Competition.”



*
 Defense Federal Acquisition Regulation Supplement 204.7003, “Basic PII Number,” defines C type
contracts as “[c]ontracts of all types except indefinite delivery contracts, sales contracts, and contracts
placed with or through other Government departments or agencies or against contracts placed by such
departments or agencies outside the DoD,” and D type contracts as “[i]ndefinite delivery contracts.”


                                                       20
We interviewed contracting personnel at NAVSUP WSS, Philadelphia Site, to discuss the
noncompetitive contract awards and to obtain information regarding the contract files
identified in our sample, specifically about the J&A, market research, and supporting
documentation. We also held discussions with command evaluation personnel, the
Competition Advocate, the Small Business Advocate, Source Development personnel,
and legal counsel at NAVSUP WSS, Philadelphia Site, to gain an understanding of their
responsibilities and roles in noncompetitive contract awards.

Use of Computer-Processed Data
We relied on computer-processed data from the FPDS-NG to establish the initial universe
for this audit by identifying noncompetitive contract actions issued by Military Services
and Defense agencies. We also used the data to help determine the contracting
organizations to visit and to perform the nonstatistical sample selection. In addition, we
used the Electronic Document Access database to obtain contract documentation, such as
the contract and modifications to the contract before our site visit to the NAVSUP WSS,
Philadelphia Site. To assess the accuracy of the computer-processed data, we verified the
FPDS-NG and Electronic Database Access data against official records at NAVSUP
WSS, Philadelphia Site. We determined that there were 10 miscodings in the data
reviewed from FPDS-NG when compared with contract documentation; however, we
used FPDS-NG only to identify the universe, to help determine the contracting
organizations to visit, and to identify our nonstatistical sample. We determined the data
obtained through the Electronic Document Access database was sufficiently reliable to
accomplish our audit objectives when compared with contract records.

In addition, we used the Integrated Technical Item Management and Procurement
(ITIMP) system to obtain electronic contract documentation through queries. NAVSUP
WSS, Philadelphia Site personnel use ITIMP, an automated procurement system,
throughout the procurement process, and use the system as an electronic contract file to
store contract data. To assess the reliability of ITIMP, we requested to review source
documentation; however, source documentation does not exist since data is inputted
directly into ITIMP. We also attempted to verify the accuracy of the data by comparing
the data to information contained in other databases, such as the Joint Deficiency
Reporting System and Web Federal Logistics Information System. These databases,
however, contain current information and do not show the history of changes to the
information; therefore, we were unable to verify that the information in the contract file
at the time of contract award matched the information in the databases due to changes
that may have occurred since the award. As a result, we were unable to determine
whether the data was sufficiently reliable for the purposes of this report. Although we
could not independently verify the reliability of the information, the data within ITIMP
was not used as the sole basis for the conclusions and recommendations made in this
report.

Use of Technical Assistance
We held discussions with personnel from the DoD Office of Inspector General’s
Quantitative Methods Division. We determined that we would use FPDS-NG data to
select a nonstatistical sample of contracting activities and then use FPDS-NG data to


                                            21
select a nonstatistical sample of noncompetitive contracts to review. During our site
visit, we worked with NAVSUP WSS, Philadelphia Site personnel to verify that selected
contracts met the scope limitations of our review and to identify additional contracts that
did not meet the selection criteria. Our nonstatistical sample was limited to specific
contracts, and our results should not be projected across other contracts issued by
NAVSUP WSS, Philadelphia Site or the Navy.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG), and the Department of the Army have issued nine
reports discussing noncompetitive contract awards. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be
accessed at http://www.dodig.mil/audit/reports. Unrestricted Army reports can be
accessed from .mil and gao.gov domains over the internet at http://www.aaa.army.mil/.

GAO
GAO Report No. GAO-12-263, “Improved Policies and Tools Could Help Increase
Competition on DoD’s National Security Exception Procurements,” January 13, 2012

GAO Report No. GAO-10-833, “Opportunities Exist to Increase Competition and Assess
Reasons When Only One Offer Is Received,” July 26, 2012

DoD IG
DoD IG Report No. DODIG-2013-003, “Army Contracting Command – Aberdeen
Proving Ground Contracting Center’s Management of Noncompetitive Awards Was
Generally Justified,” October 19, 2012

DoD IG Report No. DODIG-2012-084, “Air Force Aeronautical Systems Center
Contracts Awarded Without Competition Were Properly Justified,” May 10, 2012

DoD IG Report No. DODIG-2012-077, “Naval Surface Warfare Center Crane Contracts
Awarded Without Competition Were Adequately Justified,” April 24, 2012

DoD IG Report No. DODIG-2012-076, “Army Contracting Command – Rock Island
Contracts Awarded Without Competition Were Properly Justified,” April 19, 2012

DoD IG Report No. DODIG-2012-073, “Natick Contracting Divisions’ Management of
Noncompetitive Awards Were Generally Justified,” April 10, 2012

DoD IG Report No. DODIG-2012-042, “Naval Air Systems Command Lakehurst
Contracts Awarded Without Competition Were Properly Justified,” January 20, 2012

Army
Army Audit Agency Report No. A-2011-0002-ALC, “Extent of Competition in Army
Contracting,” October 12, 2012


                                            22
Appendix B. Federal Acquisition Regulation
Criteria
Federal Acquisition Regulation Subpart 6.3, “Other Than
Full and Open Competition”
Federal Acquisition Regulation (FAR) subpart 6.3 prescribes the policies and
requirements for contracting without full and open competition. Contracting without full
and open competition is a violation of statue, such as Section 2304, title 10, United States
Code, unless permitted by an exception provided in FAR 6.302, “Circumstances
Permitting Other Than Full and Open Competition.” FAR 6.302 lists seven exceptions
for contracting without full and open competition:

   •   FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services
       Will Satisfy Agency Requirements”;
   •   FAR 6.302-2, “Unusual and Compelling Urgency”;
   •   FAR 6.302-3, “Industrial Mobilization; Engineering, Developmental, or Research
       Capability; or Expert Services”;
   •   FAR 6.302-4, “International Agreement”;
   •   FAR 6.302-5, “Authorized or Required by Statute”;
   •   FAR 6.302-6, “National Security”; and
   •   FAR 6.302-7, “Public Interest.”

A contracting officer must not begin negotiations for or award a noncompetitive contract
without providing full and open competition unless the contracting officer justifies the
use of such action in writing, certifies the accuracy and completeness of the justification,
and obtains approval of the justification. FAR 6.303-2, “Content,” requires each
justification to contain sufficient facts and rationale to justify the use of the authority
cited. At a minimum, each justification must contain the following.

   •   The name of the agency and contracting activity and identification of the
       document as a “Justification for other than full and open competition.”
   •   A description of the action being approved.
   •   A description of the supplies or services required to meet the agency’s needs,
       including the estimated value.
   •   The statutory authority permitting other than full and open competition.
   •   A demonstration that the contractor’s unique qualifications or the nature of the
       acquisition requires the use of the authority cited.
   •   A description of the efforts made to ensure offers are submitted from as many
       sources as practicable.
   •   The contracting officer’s determination that the cost to the Government will be
       fair and reasonable.
   •   A description and the results of the market research conducted or, if market
       research was not conducted, a reason it was not conducted.


                                             23
    •   Any other facts supporting the use of other than full and open competition.
    •   A listing or sources that expressed written interest in the acquisition.
    •   A statement of the actions the agency may take to overcome any barriers to
        competition before a subsequent acquisition.
    •   The contracting officer’s certification that the justification is accurate and
        complete to the best of his or her knowledge and belief.

FAR 6.304, “Approval of the Justification,” identifies the person responsible for
approving the J&A based on the value of the proposed contract. 1 The contracting officer
approves the J&A for a proposed contract not exceeding $550,000. The competition
advocate approves the J&A for a proposed contract of more than $550,000 but not
exceeding $11.5 million. The head of the procuring activity, a general or flag officer if a
member of the military, or a civilian in a position above GS-15 under the general
schedule approves the J&A for a proposed contract more than $11.5 million but not
exceeding $78.5 million. The senior procurement executive of the agency approves the
J&A for a proposed contract over $78.5 million.

FAR Subpart 5.2, “Synopses of Proposed Contract Actions”
FAR 5.201, “General,” requires agencies to provide a synopsis of proposed contract
actions for the acquisition of supplies and services. The contracting officer must submit
the synopsis to the Governmentwide Point of Entry that can be accessed on the Internet at
https://www.fedbizopps.gov. FAR 5.203, “Publicizing and Response Time,” requires the
synopsis to be published for at least 15 days before the issuance of a solicitation or
proposed contract action; however, the contracting officer may establish a shorter period
of time for commercial items. FAR 5.207, “Preparation and Transmittal of Synopses,”
requires each synopsis submitted to the Governmentwide Point of Entry to include certain
data elements as applicable, such as the date of the synopsis, the closing response date, a
proposed solicitation number, a description, and the point of contact or contracting
officer. In addition, FAR 5.202, “Exceptions,” lists circumstances when the contracting
officer does not need to submit a synopsis. Examples of instances when the contracting
officer does not need to submit a synopsis include the following:

    •   The proposed contract action is made under FAR 6.302-2, and the Government
        would be seriously injured if the agency complied with time periods specified by
        FAR 5.203; and
    •   The proposed contract action is for an amount not expected to exceed the
        simplified acquisition threshold, will be made through a means that provides
        access to the notice of the proposed contract action through the Governmentwide
        Point of Entry; and permits the public to respond to the solicitation electronically.




1
 On October 1, 2010, the approval thresholds increased. Our review was limited to noncompetitive
contract awards during FYs 2009 and 2010; therefore, we used the approval thresholds in place during
FYs 2009 and 2010.



                                                   24
Contracting officers are required by FAR 5.207 to also include statements in the synopses
of noncompetitive contract actions stating their intent to award a noncompetitive contract
and notifying interested sources of actions they can take if interested in the
noncompetitive contract. FAR 5.207(c)(14) 2 requires the synopsis of noncompetitive
contract actions to identify the intended source and a statement of the reason justifying
the lack of competition. FAR 5.207(c)(15)(ii) requires the synopsis of noncompetitive
contract actions using FAR 6.302-1 as the authority cited to include a statement that all
responsible sources may submit a capability statement, proposal, or quotation, which will
be considered by the agency. For other proposed contract actions made under
FAR 6.302, FAR 5.207(c)(15)(i) requires the synopsis to include a statement that all
responsible sources may submit a bid, proposal, or quotation, which shall be considered
by the agency.

FAR Part 10, “Market Research”
FAR part 10 prescribes policies and requirements for conducting market research to
arrive at the most suitable approach for acquiring, distributing, and supporting supplies
and services. Agencies are required to conduct market research appropriate to the
circumstance before soliciting offers for acquisitions with an estimated value over the
simplified acquisition threshold. Agencies are required to use the results of market
research to determine whether there are appropriate sources or commercial items capable
of satisfying the agency’s requirements. The extent of market research the agencies
conducts varies depending on factors such as urgency, estimated dollar value,
complexity, and past experience. Agencies use market research techniques, such as
contacting knowledgeable individuals in Government and industry, reviewing results of
recent market research, publishing formal requests for information, querying database,
participating in on-line communication, obtaining source lists of similar items, and
reviewing available product literature. Agencies should document the results of market
research in a manner appropriate to the size and complexity of the acquisition.




2
  Effective May 31, 2011, the Federal Acquisition Regulation Circular contained updates that moved the
requirements in FAR 5.207(c)(14) and FAR 5.207(c)(15) to FAR 5.207(c)(15) and FAR 5.207(c)(16),
respectively.



                                                   25
                    Appendix C. Noncompetitive Contracts Reviewed
            Noncompetitive Contracts Awarded at NAVSUP WSS, Philadelphia Site From FY 2009 Through FY2010
           Contract          Product,                    Description at Award                      Award       Contract    Authority        Contract
                             Service,                     (excluding options)                       Date        Type        Cited            Value2
                             or R&D1
1     N00383-09-C-H004        Product     Evaluate, repair, and/or modify 40 valve assemblies     11/13/2008     FFP      FAR 6.302-1   $      296,896
2     N00383-10-D-001H        Product     Repair and/or modification of 132 data interface        12/10/2009     FFP      FAR 6.302-1        1,678,477
                                          units and 144 signal data recorders
3     N00383-09-D-003N        Product     Repair and overhaul of various components of the        12/17/2008    CPFF      FAR 6.302-1   102,372,611
                                          UH-1Y and the AH-1Z
4     N00383-09-C-F006        Product     49 windshield panels                                    12/4/2008      FFP      FAR 6.302-1          249,263
5     N00383-09-C-F024        Product     141 proximity switches                                   5/6/2009      FFP      FAR 6.302-1          184,710
6     N00383-09-C-N048        Product     81 direct current motors                                 8/7/2009      FFP      FAR 6.302-1          646,766
7     N00383-10-C-N024        Product     81 safety pressure heads                                3/22/2010      FFP      FAR 6.302-1          190,075
8     N00383-09-C-P007        Product     459 groove pulleys                                      10/2/2008      FFP      FAR 6.302-1          146,421
9     N00383-09-C-P262        Product     One air pulse generator, Four digital multimeters,      8/24/2009      FFP      FAR 6.302-1          304,229
                                          two aircraft power meters, and
                                          three aircraft downconverters
10    N00383-09-D-004F        Product     Repair of the Advanced Imaging Multi-spectral           10/29/2008     FFP      FAR 6.302-1       12,619,183
                                          Sensor for the P-3 aircraft
11    N00383-09-C-D016        Product     Evaluate, repair, and/or modify                         6/26/2009      FFP      FAR 6.302-1          648,768
                                          300 intercommunication controls
12    N00383-10-C-D017        Product     Evaluate, repair, and/or modify                         4/20/2010      FFP      FAR 6.302-1          432,512
                                          200 intercommunication controls
13    N00383-09-C-D008        Product     Evaluate, repair, and/or modify seven aircraft pylons   12/18/2008     FFP      FAR 6.302-2          178,103
14    N00383-09-C-F021        Product     Evaluate, repair, and/or modify 10 cable assemblies     3/19/2009      FFP      FAR 6.302-2          419,530
15    N00383-09-C-M012        Product     19 various items used on the C130J                      8/12/2009      FFP      FAR 6.302-1          144,639
                                          advanced turboprop engines
Acronyms and footnotes used throughout Appendix C are defined on the final page of Appendix C.




                                                                             26
           Appendix C. Noncompetitive Contracts Reviewed (cont’d)
            Noncompetitive Contracts Awarded at NAVSUP WSS, Philadelphia Site From FY 2009 Through FY2010
           Contract          Product,                     Description at Award                     Award       Contract    Authority    Contract
                             Service,                      (excluding options)                      Date        Type        Cited        Value2
                             or R&D1
16    N00383-09-C-N003        Product     46 aircraft tape cartridges                             12/4/2008      FFP      FAR 6.302-1      142,370
17    N00383-09-C-N041        Product     764 plain bearings                                      6/18/2009      FFP      FAR 6.302-1      408,106
18    N00383-09-D-020F        Product     Repair, overhaul, modification, and reporting efforts   7/28/2009     CPFF      FAR 6.302-1      988,639
                                          in support of Electronic Support Measure systems                     and FFP
19    N00383-10-C-D002        Product     Evaluate, repair, and/or modify 64 windshield panels    11/18/2009     FFP      FAR 6.302-1    2,804,482
20    N00383-10-C-F012        Product     25 metal tube assemblies, reaction pistons, socket      1/25/2010      FFP      FAR 6.302-1      191,730
                                          screw caps, linear pistons, actuating cylinders, and
                                          straight headed pins and 50 machine thread plugs,
                                          helical springs, shear bolts, shims, rings
21    N00383-10-C-F026        Product     300 windshield panels                                    6/1/2010      FFP      FAR 6.302-1    1,472,300
22    N00383-10-C-F061        Product     196 breathers                                           7/14/2010      FFP      FAR 6.302-1      414,326
23    N00383-10-C-M011        Product     Evaluate, repair, and modify 50 digital control units    8/6/2010      FFP      FAR 6.302-1      290,125
24    N00383-10-C-P057        Product     96 electric heat guns                                   12/17/2009     FFP      FAR 6.302-1      541,857
25    N00383-10-C-P224        Product     975 aircraft front tires                                 9/1/2010      FFP      FAR 6.302-1      190,223
26    N00383-09-C-F009        Product     70 power cable assemblies                               6/11/2009      FFP      FAR 6.302-1      102,690
27    N00383-10-C-M008        Product     Evaluate, repair, and/or modify                          6/8/2010      FFP      FAR 6.302-1      279,600
                                          80 duplex ball bearings
28    N00383-10-C-F045        Product     20 particle separators                                  6/29/2010      FFP      FAR 6.302-1      106,040
29    N00383-10-C-F066        Product     52 force load cells                                     7/23/2010      FFP      FAR 6.302-1      218,140
30    N00383-10-C-F017        Product     2541 gaskets                                            3/10/2010      FFP      FAR 6.302-1      220,148
Acronyms and footnotes used throughout Appendix C are defined on the final page of Appendix C.




                                                                             27
            Appendix C. Noncompetitive Contracts Reviewed (cont’d)
             Noncompetitive Contracts Awarded at NAVSUP WSS, Philadelphia Site From FY 2009 Through FY2010
            Contract           Product,                     Description at Award                        Award         Contract       Authority           Contract
                               Service,                      (excluding options)                         Date          Type           Cited                Value2
                               or R&D1
31    N00383-10-C-D007          Product     20 data memory units                                       1/15/2010         FFP       FAR 6.302-1            147,795
32    N00383-10-D-007D          Product     Performance Based Logistics Support of the                 7/30/2010         FFP       FAR 6.302-1         23,716,740
                                            ALR67(v)(3) system including field support at the
                                            Naval Air Stations Lemoore and Oceana and web-
                                            based commercial asset visibility reporting
1
  Federal Acquisition Regulation 22.1003-6, “Repair Distinguished from Remanufacturing of Equipment,” states that contracts principally for remanufacturing of
equipment which is so extensive as to be equivalent to manufacturing shall be deemed to be manufacturing when specific criteria is met. The contract shall be
deemed to be manufacturing for the major modification of the equipment that is wholly or partially obsolete, which will need to be completely or substantially
torn down, will have outmoded parts are replaced, and will be rebuilt or reassembled. In addition, the contract should result in the furnishing of a substantially
modified item in a usable and serviceable condition and the work should be performed in a facility owned or operated by the contractor.
2
  The contract value is the base award value or the maximum ceiling price at award excluding options.

CPFF                       Cost Plus Fixed Fee
FAR                        Federal Acquisition Regulation
FAR 6.302-1                Only One Responsible Source and No Other Supplies or Services Will Satisfy Agency Requirements
FAR 6.302-2                Unusual and Compelling Urgency
FFP                        Firm Fixed Price
NAVSUP WSS                 Naval Supply Systems Command Weapon Systems Support
R&D                        Research and Development




                                                                               28
                 Appendix D. Inadequate Justification and Approvals
            Noncompetitive Contracts Awarded at NAVSUP WSS, Philadelphia Site From FY 2009 Through FY2010
               Contract               Estimated Value,        Not Approved by         Authority Cited Not       Content                  Proper Legal
                                     Including Options        Proper Personnel          Appropriately       Requirements Not              Review Not
                                                                                           Applied                Met                      Obtained
 1        N00383-09-C-H004         $            296,896                                        √               √1, 2, 3, and 6                √9
 2       N00383-10-D-001H                      3,229,672                                                                 √3
 3       N00383-09-D-003N                   121,000,000
 4        N00383-09-C-F006                      203,350                                          √                 √1, 3, and 6               √9
 5        N00383-09-C-F024                      184,710                                                                  √2                   √9
 6        N00383-09-C-N048                      646,766                                                                  √2
 7        N00383-10-C-N024                      303,874                                                              √2 and 3                 √9
                                                                                                                         2 and 3
 8        N00383-09-C-P007                      135,405                                                              √                        √9
 9        N00383-09-C-P262                      259,096                                          √                √1, 2, 3, and 6             √9
10        N00383-09-D-004F                   23,567,003                                                              √2 and 3
11        N00383-09-C-D016                      639,450               √                                              √2 and 4                 √8
                                                                                                                   1, 2, 3, 4, and 6
12        N00383-10-C-D017                      430,928                                          √             √                              √9
13        N00383-09-C-D008                      133,546                                                              √3 and 5
14        N00383-09-C-F021                      228,178                                                                  √3                   √7
15       N00383-09-C-M012                       144,639                                          √                   √1 and 3                 √9
                                                                                                                   1, 2, 3, 5, and 6
16        N00383-09-C-N003                      144,900                                          √             √                              √9
17        N00383-09-C-N041                      442,715                                                                  √2                   √9
18        N00383-09-D-020F                     1,018,800                                                             √2 and 3
19        N00383-10-C-D002                     4,574,878                                                                 √3
                                                                                                                  1, 2, 3, 4, 5, and 6
20        N00383-10-C-F012                      206,532                                          √            √                               √9
21        N00383-10-C-F026                     1,477,400                                                             √2 and 3
22        N00383-10-C-F061                      484,120                                          √                √1, 2, 3, and 6             √9
23       N00383-10-C-M011                       378,079                                                              √2 and 3                 √9
                                                                                                                             2
24        N00383-10-C-P057                      541,857                                                                  √                    √8
25        N00383-10-C-P224                      190,223                                          √                √1, 2, 3, and 6             √9
Acronyms and footnotes used throughout Appendix D are defined on the final page of Appendix D.



                                                                          29
         Appendix D. Inadequate Justification and Approvals (cont’d)
             Noncompetitive Contracts Awarded at NAVSUP WSS, Philadelphia Site From FY 2009 Through FY2010
               Contract                Estimated Value,       Not Approved by             Authority Cited Not            Content                Proper Legal
                                      Including Options       Proper Personnel              Appropriately            Requirements Not            Review Not
                                                                                               Applied                     Met                    Obtained
26        N00383-09-C-F009                        102,690                                          √                     √1, 3, and 6                √9
27        N00383-10-C-M008                        279,600                                                                     √2 and 3               √9
28        N00383-10-C-F045                        104,380                                                                         √3                 √9
                                                                                                                              1, 2, 3, and 6
29        N00383-10-C-F066                        236,848                                           √                     √                          √9
30        N00383-10-C-F017                        213,544                                           √                     √1, 2, 3, and 6            √9
31        N00383-10-C-D007                        168,700                                           √                    √1, 2, 3, 4,   and 6
                                                                                                                                                     √9
32        N00383-10-D-007D                     30,000,000                                                                         √3
√Did not meet requirement
1
  Content required by FAR 6.303-2(b)(5) was not included. FAR 6.303-2(b)(5) requires the justification to include “a demonstration that the proposed
contractor’s unique qualifications or the nature of the acquisition requires use of the authority cited.”
2
  Content required by FAR 6.303-2(b)(6) was not included. Specifically, the question in the Justification &Approval template was not completed stating whether
the notice of the proposed contract action was or will be publicized as required or stating which exception applied.
3
  Content required by FAR 6.303-2(b)(8) was not included. FAR 6.303-2(b)(8) requires the justification to include a description of the market research
conducted and the results or a statement explaining why market research was not conducting.
4
  Content required by FAR 6.303-2(b)(10) was not included. Specifically, the question in the Justification & Approval template was not completed stating any
interested sources or that no sources responded in writing.
5
  Content required by NMCARS 5206.303-2(a)(ii) was not included. Specifically, the fiscal year and appropriation were not identified.
6
  Content required by NMCARS 5206.303-2(a)(iv) was not included. NMCARS 5206.303-2(a)(iv) requires the justification to include “an explanation of all
actions attempted to make the immediate acquisition competitive and the cost/benefit analysis reflecting costs associated with obtaining competition and
anticipated benefits.”
7
  Legal review was not obtained before approval of the Justification & Approval.
8
  Legal review was not obtained for procurement citing FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services Will Satisfy Agency
Requirements” with an estimated value exceeding $500,000.
9
  Legal review was not obtained for procurement citing FAR 6.302-1, “Only One Responsible Source and No Other Supplies or Services Will Satisfy Agency
Requirements” with an estimated value below $500,000.

FAR        Federal Acquisition Regulation
NAVSUP WSS Naval Supply Systems Command Weapon Systems Support
NMCARS     Navy and Marine Corps Acquisition Regulation Supplement




                                                                             30
                             Appendix E. Synopses Needing Improvements
                  Noncompetitive Contracts Awarded at NAVSUP WSS, Philadelphia Site From FY 2009 Through FY 2010
                              Required Data       Inadequate Description                                        Missing Required                  Missing Required
                                                                               Time Frames Not Met
         Contract            Elements Missing            of Items                                             Language Outlined in             Language Outlined in
                                                                              [FAR subpart 5.203(a)]
                              [FAR 5.207(a)]          [FAR 5.207(c)]                                            FAR 5.207(c)(14)1                 FAR 5.207(c)(15)1
1    N00383-09-C-H004        Not Applicable - NAVSUP WSS, Philadelphia Site personnel were unable to locate a copy of the synopsis or proof that a synopsis was posted.
2    N00383-10-D-001H                                                                                                                                    √7
3    N00383-09-D-003N                                                                                                                                    √7
4    N00383-09-C-F006                √4                                                                                   √5                             √7
5    N00383-09-C-F024                √4                                                                                  √5, 6                            √
                                         4                                                                                    5
6    N00383-09-C-N048                √                                                                                    √
                                         4
7    N00383-10-C-N024                √                                                       √                            √5
8    N00383-09-C-P007                √4                                                                                   √5                             √7
9    N00383-09-C-P262                √4                         √                                                        √5, 6                           √7
10   N00383-09-D-004F                                                                                                                                     √
11   N00383-09-C-D016                                                                        √
                                         4
12   N00383-10-C-D017                √                                                                                    √5
13   N00383-09-C-D008                                       Not Applicable - A synopsis was waived in accordance with FAR 5.202(a)(2).
14   N00383-09-C-F021                                       Not Applicable – A synopsis was waived in accordance with FAR 5.202(a)(2).
                                         2
15   N00383-09-C-M012                √                          √                                                         √5                             √7
                                         2                                                                                    5
16   N00383-09-C-N003                √                                                       √                            √
                                         2
17   N00383-09-C-N041                √                                                       √                            √5
18   N00383-09-D-020F                √3                                                      √                            √5                              √
                                         2                                                                                   5, 6
19   N00383-10-C-D002                √                                                                                   √                               √7
20   N00383-10-C-F012                √2                         √                                                         √5
21   N00383-10-C-F026                √2                         √                                                         √5                             √7
22   N00383-10-C-F061                √2                                                                                   √5                             √7
                                         2                                                                                    5
23   N00383-10-C-M011                √                                                                                    √                              √7
      Acronyms and footnotes used throughout Appendix E are defined on the final page of Appendix E.



                                                                                 31
                     Appendix E. Synopses Needing Improvements (cont’d)
                  Noncompetitive Contracts Awarded at NAVSUP WSS, Philadelphia Site From FY 2009 Through FY 2010
                              Required Data           Inadequate Description                                      Missing Required                   Missing Required
                                                                                   Time Frames Not Met
         Contract            Elements Missing                of Items                                            Language Outlined in               Language Outlined in
                                                                                  [FAR subpart 5.203(a)]
                              [FAR 5.207(a)]              [FAR 5.207(c)]                                          FAR 5.207(c)(14)1                  FAR 5.207(c)(15)1
24   N00383-10-C-P057              √2                                                                                   √5, 6                               √7
25   N00383-10-C-P224         Not Applicable - The estimated value of the proposed contract was below the Simplified Acquisition Threshold (FAR 5.202(a)(13)) before the
                                                                                        solicitation was issued.
26   N00383-09-C-F009         Not Applicable - The estimated value of the proposed contract was below the Simplified Acquisition Threshold (FAR 5.202(a)(13)) before the
                                                                                        solicitation was issued.
27   N00383-10-C-M008                √2                                                                                    √5                                √7
28   N00383-10-C-F045                √2                                                                                    √5                                √7
29   N00383-10-C-F066                √2                                                                                    √5                                √7
30   N00383-10-C-F017                √2                          √                                                         √5                                √7
31   N00383-10-C-D007                                                                                                                                        √7
32   N00383-10-D-007D                                                                                                                                        √
      √Did not meet requirement
      1
        Effective May 31, 2011, the Federal Acquisition Regulation Circular contained updates that moved the requirements in FAR 5.207(c)(14) and
        FAR 5.207(c)(15) to FAR 5.207(c)(15) and FAR 5.207(c)(16), respectively.
      2
        Did not identify contractor
      3
        Did not identify the contracting office zip code, the contractor, or the place of performance
      4
        Did not identify the contractor or the place of performance
      5
        Did not state the intended sole-source contractor
      6
        Did not justify the reason for the lack of competition
      7
        Used numbered notes

      FAR     Federal Acquisition Regulation




                                                                                  32
Naval Supply Systems Command Comments




                              33
34
35
